No. 19-604
IN THE SUPREME COURT OF THE UNITED STATES
_________________
ERNEST L. FRANCWAY, JR., PETITIONER
v.
ROBERT WILKIE, SECRETARY OF VETERANS AFFAIRS
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENT IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 7th day of February 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 5,054 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
February 7, 2020

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
February 7, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0604
FRANCWAY, ERNEST L., JR.
ROBERT WILKIE, SECRETARY OF VETERANS
AFFAIRS

MELANIE L. BOSTWICK
ORRICK,HERRINGTON & SUTCLIFFE LLP
COLUMBIA CENTER
1152 15TH STREET, NW
WASHINGTON, DC 20005-1706
202-339-8483
MBOSTWICK@ORRICK.COM
ANGELA K. DRAKE
UNIVERSITY OF MISSOURI SCHOOL OF LAW
VETERANS CLINICS
225 HULSTON HALL
COLUMBIA, MO 65211
573-882-7630
DRAKEA@MISSOURI.EDU
MICHAEL E. JOFFRE
STERNE, KESSLER, GOLDSTEIN & FOX PLLC
1100 NEW YORK AVENUE, NW
WASHINGTON, DC 20005
202-371-2600
MJOFFRE@STERNEKESSLER.COM

